U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    NATIONAL INSTITTUTE
                          OF STANDARDS
                       AND TECHNOLOGY

               NIST’s Patent License Agreement
                   Process Needs Improvement


      Audit Report No. STD-16009-4-0001/December 2003




                              PUBLIC
                              RELEASE



   Office of Audits, Science & Technology Audits Division

